                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDlTM

      Case Number: AI0070049                                                                      Page I of I
,

i,

                        NSF OIG identified plagiarism in two proposals l and contacted thePI. 2 The PI's
               response indicated that some of the copied text was authored by company colleagues who' were
               also listed on the proposal budgets. Based on the PI's response, only a de rrzinimus amount of
               plagiarism was in the proposals. We sent the Subject a letter reminding her of her responsibility
             , to adequately cite all material in her NSF proposals.

                        This case is closed and no further action will be taken.




     NSF OIG Fonn 2 (11102)
